smmue  OCKLE

j E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B re fs contact@cocklelegalbriefs.com
1923,
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-439

CTIA — THE WIRELESS ASSOCIATION,
Petitioner,

v.
CITY OF BERKELEY, CALIFORNIA, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of October, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICUS CURIAE OF PACIFIC LEGAL FOUNDATION
IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by Priority
Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DEBORAH J. LA FETRA
Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
E-mail: DLaFetra@pacificlegal.org

Counsel for Amicus Curiae
Pacific Legal Foundation

Subscribed and sworn to before me this 30th day of October, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

come,  E Clee QC diaw- hk, Ble

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38811
SERVICE LIST

THEODORE B. OLSON
Counsel of Record

HELGI C. WALKER

JACOB T. SPENCER

Gibson, Dunn & Crutcher LLP

1050 Connecticut Avenue, NW

Washington, DC 20036

(202) 955-8668

tolson@gibsondunn.com

Attorneys for Petitioner CTIA - The Wireless Association

LESTER LAWRENCE LESSIG, III
Counsel of Record

Harvard Law School

1563 Massachusetts Avenue, Areeda 235

Cambridge, MA 02138

(617) 496-8853

lessig@law.harvard.edu

Attorney for Respondents City of Berkeley, et al.
